   August 20, 2002




Financial
Management
Measurement of Water Usage by
DoD Components Serviced by the
District of Columbia Water and
Sewer Authority
(D-2002-140)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
  fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

FOWM                  Federally Owned Water Main
IG DoD                Inspector General of the Department of Defense
WASA                  Water and Sewer Authority
        Office of the Inspector General of the Department of Defense
Report No. D-2002-140                                                 August 20, 2002
  (Project No. D2001FA-0154.001)

      Measurement of Water Usage by DoD Components Serviced
       by the District of Columbia Water and Sewer Authority

                                   Executive Summary

Who Should Read This Report and Why? This report should be read by DoD
managers who have a direct interest in, or are in need of information about the
accuracy of the measurement of water usage by DoD Components serviced by the
District of Columbia Water and Sewer Authority.

Background. The District of Columbia Water and Sewer Authority supplies water
and wastewater treatment (sewer) services to 16 separate DoD installations, sites, and
other organizations in the National Capital Region. Public Law 106-554, the
Consolidated Appropriations Act of 2001, requires the inspector general of each
Federal agency to audit the agency’s promptness in paying the District of Columbia for
water and sewer services. The District of Columbia Water and Sewer Authority
provides meter readings and annual estimated billings to the Department of
the Treasury for water and sewer services provided to the DoD Components and other
Federal agencies. We evaluated the accuracy of water meter readings that supported
the billings for water and sewer services and assessed the adequacy of the related
management controls.

Results. DoD Components could not determine the accuracy of water meter readings
for services provided by the District of Columbia Water and Sewer Authority. There
was a need for procedures to inspect, maintain, repair, and replace water meters. At
least 27 of 60 water meters were not working properly. As a result, from FY 1990
through May 2001, DoD Components connected to the Federally Owned Water Main
were overcharged about $1.8 million, and the National Park Service was overcharged
about $0.5 million. Furthermore, DoD Components had no assurance as to the
accuracy of water and sewer bills that fluctuated from $29.9 million in FY 2000 to
$2.1 million in FY 2002. See Finding section for details on audit results and
recommendations.

Management Comments and Audit Response. The Assistant Secretary of the Navy
(Installations and Environment), the Director of Washington Headquarters Services
(Real Estate and Facilities), the Director of the National Imagery and Mapping Agency,
and the Superintendent of Arlington National Cemetery concurred with the
recommendations and have initiated corrective actions. However, the Director of the
National Imagery and Mapping Agency and the Superintendent of Arlington National
Cemetery did not provide completion dates for corrective actions. The Army and the
Air Force did not respond to the draft report. We request that the Army, Air Force,
Director of the National Imagery and Mapping Agency and the Superintendent of
Arlington National Cemetery provide comments on the final report by
September 20, 2002. See the Finding section of the report for a discussion of
management comments and audit responses and the Management Comments section of
the report for the complete text of the comments.




                                         ii
Table of Contents

Executive Summary                                                    i


Background                                                           1


Objective                                                            3


Finding
     Accuracy of DoD-Owned Water Meters                              4

Appendixes
     A. Scope and Methodology                                       10
          Management Control Program Review                         10
          Prior Coverage                                            11
     B. DoD Customers of the District of Columbia Water and Sewer
          Authority                                                 12
     C. FY 2002 Billing and Payment Process                         13
     D. Illustration of Federally Owned Water Main                  15
     E. Report Distribution                                         16

Management Comments
     Department of the Navy                                         19
     National Imagery and Mapping Agency                            20
     Washington Headquarters Services                               23
     Arlington National Cemetery                                    26
Background
     Public Law 106-554, the Consolidated Appropriations Act of 2001, requires the
     inspector general of each Federal agency to audit the agency’s promptness in
     paying the District of Columbia for water and sewer services. The District of
     Columbia Water and Sewer Authority (WASA) provides meter readings and
     annual estimated billings to the Department of the Treasury for water and sewer
     services provided to DoD Components and other Federal agencies. The audit
     examines the adequacy of management controls to ensure amounts billed by
     WASA are proper.

     The District of Columbia Water and Sewer Authority. The District of
     Columbia provides both water supply and wastewater treatment (sewer) services
     to Federal agencies and DoD Components within the National Capital Region.
     Under the District of Columbia Public Works Act of 1954, the Federal
     Government is to receive water and sewer services from the District of
     Columbia, and the District of Columbia is to be paid with an annual lump sum
     in the District of Columbia Appropriations Act. In October 1996, the District of
     Columbia City Council transferred water and sewer responsibilities from the
     Department of Public Works to WASA. WASA provides meter readings and
     annual estimated billings to the Department of the Treasury for water and sewer
     services provided to the Federal agencies and DoD Components. See
     Appendix B for a list of DoD customers receiving WASA services.

     Department of the Treasury. The Department of the Treasury has the
     responsibility for paying WASA for water and sewer services it provides to
     Federal agencies, such as DoD Components. Based on meter readings and
     estimated bills the Department of the Treasury receives from WASA, the
     Department of the Treasury provides invoices with estimated quarterly payment
     amounts to the Federal agencies and DoD Components for their estimated water
     and sewer usage. The DoD Components, composed of 16 separate installations,
     sites, and organizations, are required to make quarterly payments to the
     Department of the Treasury for those billings.

Water and Sewer Payment Legislation
     1990 Legislation. Public Law 101-168, the District of Columbia
     Appropriations Act of 1990, changed the payment method for Federal agencies’
     water and sewer consumption within the District of Columbia. Public
     Law 101-168 shifted responsibility for payment of water and sewer bills to the
     respective Federal agencies. Under Public Law 101-168, the Department of the
     Treasury serves as a collection agent, receiving payments from individual
     agencies for their share of the estimated water and sewer usage, and remitting a
     single payment to the District of Columbia. Funds for water and sewer services
     come through the agencies’ own operating budgets and their respective
     appropriations. WASA is required to submit a budget to the Office of
     Management and Budget that includes an estimate of the cost of services for the


                                         1
Federal agencies. WASA submits the bills to the Department of the Treasury
for the Federal agencies and DoD Components within the National Capital
Region. The Federal agencies and DoD Components are required to make
quarterly payments to the U.S. Treasury account entitled “Federal Payment for
Water and Sewer Services” on the first day of each quarter. The Department of
the Treasury is to pay WASA from this account on the second day of each
quarter. If there are insufficient funds in the account, the Secretary of the
Treasury is to make payments from available funds, which will be reimbursed
by the user agencies.

2001 Legislation. Public Law 106-554 amended the process used by the
Federal agencies to make payments to the Department of the Treasury. The
Department of the Treasury is now authorized and directed to draw down funds
from Federal agencies and provide those funds to WASA by the second day of
each quarter when agencies do not forward timely payments of amounts billed
by WASA. Public Law 106-554 applied to current billed amounts and
retroactively to past due amounts dating back to FY 1990.

2002 Legislation. Public Law 107-96, the District of Columbia Appropriations
Act of 2002, enacted on December 21, 2001, provides additional guidance on
WASA and the Federal agencies’ responsibilities for installing, maintaining, and
testing water meters, as well as the responsibility for allocating the billed
amount for services among multiple users sharing one meter. The District of
Columbia Public Works Act of 1954 had provided:
          That as a condition of service, at each point of the Federal Connection
          to the water system of the District for service outside the District
          there shall be installed and maintained at the expense of the
          department, independent establishment, or agency of the United States
          which is to use water there from a suitable meter or meters… .

Public Law 107-96 provides:
          As an additional condition of service, the department, agency, or
          establishment which is responsible for the maintenance of any such
          meter shall provide the Mayor (acting through the District of
          Columbia Water and Sewer Authority) with such access to the meters
          as the Mayor may require to measure actual usage of the department,
          agency, or establishment (including any entity under the jurisdiction
          of the department, agency, or establishment) for purposes of making
          the adjustments to annual estimates… .

Public Law 109-76 further provides:
          If a department, independent establishment, or agency of the United
          States which uses water and water services from the District of
          Columbia water supply system has not installed a suitable meter at
          each point of the Federal connection to the system to control and
          record the use of water through each such connection (as required




                                        2
               under section 106 (a) of the District of Columbia Public Works Act
               of 1954) as of the expiration of the 60-day period which begins on the
               date of the enactment of this Act:

                   (A) the District of Columbia Water and Sewer Authority shall
                   install such a meter or meters (and incidental vaults, valves,
                   piping and recording devices, and such other equipment as the
                   Authority deems necessary) not later than 60 days after the
                   expiration of the period; and

                   (B) the department, independent establishment, or agency shall
                   pay the Authority promptly (but in no case later than 30 days
                   after the Authority submits a bill) for the costs incurred in
                   installing the meter and equipment.

    Public Law 107-96 also makes each Federal department, independent
    establishment, or agency responsible for allocating and collecting billed amounts
    for District of Columbia water and sewer services from entities under the
    jurisdiction of the Federal department, independent establishment, or agency.


Objective
    The audit objective was to evaluate the accuracy of DoD Components’ water
    meter readings for the services provided by the District of Columbia Water and
    Sewer Authority and assess the adequacy of the related management controls.
    See Appendix A for a discussion of the audit scope and methodology and prior
    coverage related to the audit objectives.




                                            3
           Accuracy of DoD-Owned Water Meters
           DoD Components could not determine the accuracy of water meter
           readings for services provided by the District of Columbia Water and
           Sewer Authority. This condition occurred because DoD Components
           had not identified WASA and DoD Component responsibilities for and
           locations of DoD-owned water meters. Also, DoD Components had not
           established controls and procedures to:

               •   verify that WASA routinely inspected, reported inspection
                   results, and read 60 DoD-owned water meters;

               •   repair or replace inoperable water meters; and
               •   accurately measure water usage from the Federally Owned Water
                   Main.

           As a result, from FY 1990 through May 2001, DoD Components
           connected to the Federally Owned Water Main were overcharged about
           $1.8 million, and the National Park Service was overcharged about
           $0.5 million. Furthermore, DoD Components had no assurance as to the
           accuracy of water and sewer bills ranging from $29.9 million in
           FY 2000 to $2.1 million in FY 2002.


Responsibility and Locations of DoD-Owned Water Meters
    DoD Components did not adequately identify WASA and DoD Components’
    responsibilities for DoD-owned water meters. DoD Components were not
    aware of WASA practice to inspect water meters and that the Components were
    responsible for the maintenance and repair of DoD-owned meters. Public
    Law 101-168 assigns WASA the responsibility to bill the Department of the
    Treasury for water and sewer services, the Department of the Treasury the
    responsibility to bill and collect from Federal agencies, and the Federal agencies
    the responsibility for payment. Public Law 101-168 does not establish
    procedures or processes to dispute water and sewer bills or to resolve disputes
    between DoD Components, WASA, and the Department of the Treasury.
    DoD Components were mandated to pay water and sewer bills without a process
    to dispute improper billing; however, the Components did not maintain or repair
    water meters and did not verify the accuracy of meter readings.

    DoD Component and WASA records show discrepancies concerning the number
    of meters and meter locations. For example, WASA records showed that
    Walter Reed Army Medical Center was billed for 10 water meters while Walter
    Reed Army Medical Center records showed 9. Also, DoD Components were
    not certain which meters WASA should service. WASA inspected four meters
    at Fort McNair. Fort McNair contends that only three water meters are



                                        4
    serviced by WASA, one of which was not in WASA records.
    DoD Components need to locate all meters that measure water service from
    WASA and establish and implement procedures to test the meters.


Inspection and Meter Readings
    Inspection of Meters and Reporting Results. DoD Components did not verify
    that WASA routinely inspected water meters, were not notified when water
    meters were inspected, and were not made aware of the results of the meter
    inspections. WASA practice requires that DoD Components repair or replace
    meters within 30 days after receiving written notification from WASA of the
    meters’ condition. However, neither WASA nor DoD Components have
    records of WASA providing notification to DoD Components or other Federal
    customers of inoperable meters. DoD Components need to establish and
    implement procedures to verify that WASA routinely inspects and reports results
    of inspections for DoD-owned water meters.

    Meter Readings. DoD Components did not verify that WASA routinely read
    DoD-owned water meters. Although WASA practice was to perform monthly
    readings, WASA records show that meter readings were made 4 to 208 days
    apart. DoD Components also were not notified when WASA read the meters.
    The need for DoD Components to verify that meters are accurately read at the
    point of Federal connection is important because WASA provides meter
    readings and annual estimated billings based on those meter readings to the
    Department of the Treasury for water and sewer services provided to
    DoD Components. Based on the information the Department of the Treasury
    receives from WASA, the Department of the Treasury prepares invoices that
    show the estimated bill for the fiscal year, including adjustments based on actual
    usage from 3 years prior. DoD Components are then required to make
    quarterly payments to the Department of the Treasury for the amounts billed.
    Appendix C shows a flowchart of this complex billing and payment process.
    DoD Components need to develop and implement effective controls and
    procedures to verify that WASA accurately reads water meters to ensure that
    estimated water and sewer bills are reliable.


Repair or Replacement of Water Meters
    DoD Components had not established procedures for repairing or replacing
    inoperable water meters. We reviewed WASA test reports for 27 of 60 DoD-
    owned water meters. For 27 meters tested between June 12, 2000, and
    June 28, 2001, 5 meters did not work and the remaining 22 meters did not
    accurately register water usage. We also found that DoD Components did not
    establish or implement preventative maintenance programs to facilitate efficient
    operation and to extend the useful life of the meters. As a result, at least 45
    percent (27 of 60) of the DoD-owned meters need to be repaired or replaced.



                                        5
    Although the remaining 33 meters were not tested, those meters could also be
    inaccurately measuring water usage. Table 1 shows the details for the
    DoD Components meters tested.

                    Table 1. DoD Water Meters Tested From June 2000 to June 2001

                                                      Total             Meters           Meters Not         Inaccurate
                                                    __Meters__        __Tested___        __Working_        ___Meters__


     Pentagon 1                                          1                  0                  -                  -
     Arlington National Cemetery1                        1                  0                  -                  -
     Walter Reed Army Medical Center                    10                  8                 1                   7
     Fort McNair                                         4                  4                 1                   3
     Navy2                                              37                12                  3                   9
     Bolling Air Force Base                              6                  3                  -                  3
     National Imagery and Mapping Agency                 1                  0                  -                  -
            Total                                       60                27                  5                  22
     1
         Represents one of two meters at the Federally Owned Water Main (FOWM).
     2
     Navy has three meters that are not working. Of the three meters, two meters were tested by an independent
         contractor hired by the Navy.



    In an effort to resolve the problem with the deficiency of the water meters,
    DoD Components have replaced or plan to replace nonworking meters.
    Therefore, we are making no recommendations to install or replace the water
    meters. However, DoD Components need to establish and implement a
    maintenance program to repair or replace meters.


Federally Owned Water Main
    DoD Components had not installed individual meters (sub-meters) to accurately
    measure water supplied from the Federally Owned Water Main (FOWM). The
    FOWM has two shared meters located at the Francis Scott Key Bridge (Key
    Bridge). See Appendix D for an illustration of the FOWM. Washington
    Headquarters Services (the Pentagon), Fort Myer, Arlington National Cemetery,
    and two non-DoD agencies, Department of the Interior (National Park Service)
    and Ronald Reagan National Airport, were all users of the FOWM. National
    Airport had two sub-meters connected to FOWM to measure water flowing
    directly to the airport. WASA used the two shared meters at the Key Bridge to
    determine DoD Components’ water usage and billed amounts. From
    FY 1990 to May 2001, WASA billed National Airport based on meter readings
    from the airport’s two sub-meters connected to the FOWM but did not deduct
    the airport’s water usage from the amounts billed to the three DoD Components
    and the National Park Service. As a result, WASA overbilled the three


                                                       6
    DoD Components by $1,828,103 and the National Park Service by $548,841.
    In a letter to the Office of Management and Budget, dated April 15, 2002, the
    WASA Chief Financial Officer provided projected billing estimates for Federal
    customers for FY 2004. The billing estimates included the refund for prior
    duplicate billings totaling $2.4 million.

    In FY 1999, Fort Myer stopped receiving water and sewer services from
    WASA. During FY 2001, the Pentagon and Arlington National Cemetery
    installed individual meters on the FOWM to measure water usage. Public
    Law 107-96 assigns new responsibilities to DoD Components for payments of
    the WASA billings.
              Nothing in this section may be construed to require the District of
              Columbia to seek payment for water services directly from any
              Federal entity which is under the jurisdiction of a department,
              independent establishment, or agency which is required to make a
              payment for such services under this section, or to allocate any
              amounts charged for such services among the entities which are under
              the jurisdiction of any such department, independent establishment, or
              agency. Each Federal department, independent establishment, and
              agency receiving water from the District of Columbia shall be
              responsible for allocating billings for such services among entities
              under the jurisdiction of the department, establishment, or agency,
              and shall be responsible for collecting amounts from such entities for
              any payments made to the District of Columbia under this section.

              In the case of water services provided to a department, independent
              establishment, or agency in Virginia through the Federally owned
              water main system, if the total amounts billed for all individual users
              of the system (as measured by the meters for each individual user), is
              less than the total amount as measured by the meters at the delivery
              points into the system at the Francis Scott Key Bridge, the District
              government shall collect, and the Secretary of Defense shall pay, the
              difference to the District government in accordance with the
              requirements for collecting and making payments under this section.

    The Director, Washington Headquarters Services should establish procedures to
    ensure that all parties with connections to the FOWM have meters that are
    properly read and tested for accuracy. In addition, the Director, Washington
    Headquarters Services should reconcile WASA meter readings and individual
    meters along the FOWM with the readings for the shared meters located at the
    Key Bridge.


Water and Sewer Bills
    DoD Components could not determine the accuracy of water and sewer bills that
    varied significantly from year to year. For example, the Navy was billed
    $13.7 million in FY 2000 for water and sewer usage but was billed only
    $2.5 million in FY 2001. As a result, the Navy cannot reasonably estimate


                                            7
    water and sewer bills for future years. Table 2 shows significant variations in
    amounts billed to DoD Components for water and sewer services over a 3-year
    period.

     Table 2. Amounts Billed to DoD Components for Water and Sewer Services in
                              FY 2000 Through FY 2002
                                                      (in thousands)

                                               FY 2000                   FY 2001                 FY 2002


     Pentagon1                                $ 2,443                   $ 1,180                  $ 1,371

     Navy                                      13,689                      2,523                 (1,578)2

     Bolling Air Force Base                    10,563                      1,447                   (685)2

     Other DoD Components3                      3,167                      2,594                   3,035

            Total                            $ 29,862                   $ 7,744                  $ 2,143

     1
         Allocations based on Pentagon FOWM and Sewer Evaluation Report.

     2
         Navy and Air Force Components have credits in FY 2002 for prior year overpayments.

     3
         Includes Arlington National Cemetery, Walter Reed Army Medical Center, Fort Myer, Fort McNair,
         and National Imagery and Mapping Agency.


    In conclusion, DoD Components had no assurance as to the accuracy of water
    and sewer bills ranging from $29.9 million in FY 2000 to $2.1 million in
    FY 2002.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Commander, Walter Reed Army Medical
    Center; Commander, Fort Myer; Superintendent, Arlington National
    Cemetery; Director, Navy Staff (Field Support Activity); Commander,
    Bolling Air Force Base; Director, National Imagery and Mapping Agency;
    and Director, Washington Headquarters Services:

       a. Locate and test water meters that measure water service from the
    District of Columbia Water and Sewer Authority.

        b. Establish and implement procedures to verify that the District of
    Columbia Water and Sewer Authority routinely inspects and reports results
    of inspections for DoD-owned water meters.




                                                         8
   c. Develop and implement effective controls and procedures to verify
that the District of Columbia Water and Sewer Authority accurately reads
water meters to ensure that estimated water and sewer bills are reliable.

   d. Establish and implement a maintenance program to repair or replace
inoperable water meters.

Management Comments. The Assistant Secretary of the Navy (Installations
and Environment) and the Director of Washington Headquarter Services (Real
Estate and Facilities) concurred with the recommendations and stated that
corrective actions will be completed by September 30, 2002. Washington
Headquarters Services plans to replace the 16- and 18-inch water meters at the
Key Bridge. The Director of the National Imagery and Mapping Agency and
the Superintendent of Arlington National Cemetery concurred but did not
provide dates for completion of corrective actions. The Army and the Air Force
did not comment on the recommendations.

Audit Response. We request that Army and Air Force provide comments in
response to the final report. We also request that the Director of the National
Imagery and Mapping Agency and the Superintendent of Arlington National
Cemetery provide dates that the planned actions will be completed.

2. We recommend that the Director, Washington Headquarters Services
should establish procedures to:

  a. Determine that all meters connected to the Federally Owned Water
Main are properly read and tested for accuracy.

   b. Reconcile the District of Columbia Water and Sewer Authority meter
readings for the shared meters at the Francis Scott Key Bridge with the
readings for individual meters along the Federally Owned Water Main.

Management Comments. The Director of Washington Headquarters Services
(Real Estate and Facilities) concurred with the recommendations. Washington
Headquarters Services stated that through combined efforts between Washington
Headquarters Services and the District of Columbia Water and Sewer Authority,
the accuracy of the meters will be validated and reading inconsistencies will be
resolved. Corrective actions will be completed by September 30, 2002.




                                    9
Appendix A. Scope and Methodology
    We evaluated the accuracy of DoD Components’ meter readings for water
    services provided by the District of Columbia Water and Sewer Authority
    (WASA). We interviewed WASA and DoD Component personnel to obtain an
    understanding of the management controls for water meters. We reviewed
    36 WASA meter inspection and 27 meter accuracy test reports to determine the
    number of DoD Components’ water meters that were not working properly or
    not working at all. We also reviewed WASA meter readings since 1990, if
    available, to determine how long water meters have not been working. We
    accompanied WASA personnel to read DoD Components’ water meters to
    verify the meters were working. We also observed calibration tests on four
    water meters to determine meter maintenance requirements.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Financial Management high-risk area.

    Use of Computer-Processed Data. We did not rely on computer-processed
    data for our review of the accuracy of DoD Components’ water meters serviced
    by the District of Columbia and the related management controls.

    Audit Dates and Standards. We performed the audit from July 2001 through
    April 2002 in accordance with generally accepted government auditing
    standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD and the District of Columbia Water and Sewer
    Authority. Further details are available upon request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DoD Components’ management controls over meter readings and
    inspections. Specifically, we reviewed DoD Components’ controls over the
    maintenance and replacement of water meters. Management did not have self-
    evaluations applicable to these controls.




                                       10
    Adequacy of Management Controls. We identified material management
    control weaknesses for DoD Components as defined by DoD
    Instruction 5010.40. DoD Components did not have management controls to
    ensure that meter readings and inspections were performed properly and that
    maintenance and replacement of meters were completed as necessary.
    Recommendations 1.a., 1.b., 1.c., and 1.d., if implemented will improve DoD
    Components’ controls over the maintenance and replacement of water meters.
    A copy of the report will be provided to each official responsible for
    management controls for each DoD Component.




Prior Coverage
    The Inspector General of the Department of Defense (IG DoD) has conducted
    multiple audits related to DoD Components’ payments for water and sewer services
    provided by the District of Columbia Water and Sewer Authority. IG DoD reports
    can be accessed on the Internet at http://www.dodig.osd.mil/audit/reports.




                                      11
Appendix B. DoD Customers of the District
            of Columbia Water and Sewer
            Authority
The 16 DoD Components for which the WASA provides water and sewer
services are listed below.


Army
Arlington National Cemetery
Fort McNair
Walter Reed Army Medical Center

Navy
Anacostia Naval Station
Bellevue Naval Housing
Marine Corps Barracks, 8th & I
Naval Observatory
Naval Research Laboratory
Nebraska Avenue Annex
Potomac Annex
Washington Navy Yard

Air Force
Bolling Air Force Base

Other Defense Organizations
National Defense University Center
National Imagery and Mapping Agency
National War College
Washington Headquarters Services




                                 12
Appendix C. FY 2002 Billing and Payment Process
   WASA provides meter readings and annual estimated bills to the Department of
   the Treasury for water and sewer services for Federal agencies and
   DoD Components within the National Capital Region. Based on the information
   the Department of the Treasury receives from WASA, the Department of the
   Treasury prepares bills for the Federal agencies and DoD Components.
   Generally, in the second quarter of each fiscal year, DoD Components receive
   annual bills from the Department of the Treasury that show the estimated bill for
   the fiscal year, including adjustments based on actual usage from 3 years prior,
   and the quarterly payments due for the second, third, and fourth quarters. To
   illustrate, on April 15, 2000, WASA prepared a bill that contained an estimate
   of anticipated water and sewer usage for use in the FY 2002 President’s Budget.
   The bill included adjustments for actual water and sewer usage variances in
   FY 1999. The bill was sent to the Department of the Treasury for distribution
   to the Federal agencies and DoD Components.




                                      13
                                              April 15, 2000, estimated
                    Water and                 bill sent to the Office Of                  Office of
                                              Management and Budget
                     Sewer                    based on FY 1999 usage.
                                                                                         Management
                    Authority                                                            and Budget




FY 2002 estimated                                                                  One-fourth payment
bill sent, including                                                               of the FY 2002
adjustment for                                                                     sent on second day
actual usage.                                                                      of each quarter.




                                            Department of
                                             the Treasury




FY
FY 2000
     2002 estimated
           estimated                                                             One-fourth payment
bill
sent,
bills sent, including                                                            for FY 2002 sent
i l di
adjustment   for 1999                                                            first day of each quarter.
1997
actual usage.




                                        16 DoD Components:

            1)   Anacostia Naval Station                  9)   National War College
            2)   Arlington National Cemetery             10)   Naval Observatory
            3)   Bellevue Naval Housing                  11)   Naval Research Laboratory
            4)   Bolling Air Force Base                  12)   Nebraska Avenue Annex
            5)   Fort McNair                             13)   Potomac Annex
            6)   Marine Corps Barracks (8th & I)         14)   Walter Reed Army Medical Center
            7)   National Defense University Center      15)   Washington Headquarters Services
            8)   National Imagery and Mapping Service    16)   Washington Navy Yard




                                                 14
Appendix D. Illustration of Federally Owned
            Water Main
              FRANCIS SCOTT
                                         Shared Meters
              KEY BRIDGE
                                   »       Feeder Waterline
                                    »
                                                   ROOSEVELT
                                                   ISLAND
                                                   (Sub-meters unknown)


            Feeder Waterline                            POTOMAC RIVER




                                                                                     NORTH
   FORT MYER
   (4 sub-meters)
                      ARLINGTON
                      NATIONAL
                      CEMETERY
                      (2 sub-meters)

              Federally Owned
              Water Main                                    PENTAGON
                                                            (22 sub-meters)




                                                                              REAGAN
                                                                              NATIONAL
                                                                              AIRPORT
                                               Sub-meters                     (2 sub-meters)
                                                                       »
                                                                       »




                                        15
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller/Chief Financial Officer)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Administration and Management

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commander, Walter Reed Army Medical Center
Commander, Fort Myer
Superintendent, Arlington National Cemetery

Department of the Navy
Chief of Naval Operations
   Director, Field Support Activity
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Facilities Engineering Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Bolling Air Force Base

Defense Organizations
Director, Washington Headquarters Services
Director, Defense Finance and Accounting Service
Director, National Imagery and Mapping Agency
Inspector General, National Imagery and Mapping Agency




                                         16
Non-Defense Federal Organizations
Office of Management and Budget
Inspector General, Department of the Treasury

Congressional Committees and Subcommittees, Chairman
  and Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         17
Department of Navy Comments




                    19
National Imagery and Mapping Agency
Comments




                    20
21
22
Washington Headquarters Services Comments




                    23
24
25
Arlington National Cemetery Comments




                     26
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of
the Office of the Inspector General of the Department of Defense who
contributed to the report are listed below.

Garold E. Stephenson
Robert K. West
Henry F. Kleinknecht
Ronald W. Hodges
Pauletta P. Battle
